Report No. DODIG-2012-117                August 14, 2012





    DoD Needs to Improve Controls Over Economy Act 

        Orders with U.S. Agency for International 

                     Development

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil, or by mail:

                       Department of Defense Office of Inspector General
                       Office of the Deputy Inspector General for Auditing
                       ATTN: Audit Suggestions/13F25-04
                       4800 Mark Center Drive
                       Alexandria, VA 22350-1500




Acronyms and Abbreviations
ADA                           Antideficiency Act
ASA/FM&C                      Assistant Secretary of the Army (Financial Management and
                               Comptroller)
CERP                          Commander’s Emergency Response Program
C-JTSCC                       CENTCOM-Joint Theater Support Contracting Command
DFARS                         Defense Federal Acquisition Regulation Supplement
DoD FMR                       DoD Financial Management Regulation
EAO                           Economy Act Order
FAR                           Federal Acquisition Regulation
IA                            Interagency Acquisition
MAAWS-Afghanistan             Money As A Weapon System-Afghanistan
MIPR                          Military Interdepartmental Purchase Requests
OMA                           Operations and Maintenance, Army
USAID                         U.S. Agency for International Development
U.S.C.                        United States Code
USCENTCOM                     U.S. Central Command
USD/AT&L                      Under Secretary of Defense for Acquisition, Technology, and
                               Logistics
USD(C)/CFO                    Under Secretary of Defense (Comptroller)/Chief Financial
                               Officer
USFOR-A                       U.S. Forces-Afghanistan
                                 INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500



                                                                          August 14, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS)
               UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER, DOD
               COMMANDING GENERAL, U.S. CENTRAL COMMAND
               COMMANDING GENERAL, U.S. FORCES-AFGHANISTAN
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: 	 DoD Needs to Improve Controls Over Economy Act Orders with U.S. Agency
           for International Development (Report No. DODIG-20 1~-1 17)

We are providing this report for review and comment. We considered management
comments on a draft of this report when preparing the final report. U.S. Central Command
and U.S. Forces-Afghanistan officials did not establish adequate controls over interagency
acquisitions when transferring $40.1 million in Commander's Emergency Response
Program funds to the U.S. Agency for International Development (USAID) using three
Economy Act Orders. DoD and USAID may have committed Antideficiency Act
violations of $27.6 million and USAID improperly used $17.6 million of DoD funds .

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The U.S.
Central Command comments on Recommendation A.3.a, and the Assistant Secretary of the
Army (Financial Management and Comptroller) comments on Recommendation B.2 were
partially responsive. Therefore, we request the U.S. Central Command provide additional
comments on Recommendation A.3.a, and the Assistant Secretary .of the Army (Financial
Management and Comptroller) provide additional comments on Recommendations B .2.a,
B.2.b, and B:2.c by September 14,2012.

If possible, send a portable document format (.pdf) file containing your comments to
audfmr@dodig.mil. Copies of your comments must have the actual signature ofthe
authorizing official for your organization. We are unable to accept the /Signed/ symbol in
place ofthe actual signature. If you arrange to send classified comments electronically,
you must send them over the SECRET Internet Protocol Router Network (SJPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8938.


                                fW-\        f\ .   J~
                                Richard B. Vasquez, CPA 

                            Acting Assistant Inspector General 

                           Financial Management and Rep01iing 

Report No. DODIG-2012-117 (Project No. D2011-D000FL-0218.000)                     August 14, 2012

                Results in Brief: DoD Needs to Improve
                Controls Over Economy Act Orders with U.S.
                Agency for International Development
What We Did                                                 projects primarily benefitted U.S. Forces. In addition,
The objective of the audit was to determine whether         USAID officials inappropriately obligated
U.S. Central Command and U.S. Forces-Afghanistan            $9.6 million of CERP funds that were not a DoD bona
(USFOR-A) controls over the interagency transfer of         fide need in FY 2009 and inappropriately obligated
Commander’s Emergency Response Program (CERP)               $17.6 million of CERP funds on out-of scope projects
Funds to the U.S. Agency for International                  that were not properly approved by DoD. As a result,
Development (USAID) were adequate to ensure                 C-JTSCC and USAID may have committed
compliance with Economy Act Order (EAO)                     Antideficiency Act (ADA) violations and USAID
requirements. Specifically, we reviewed three CERP          improperly used DoD funds.
funded EAOs totaling $40.1 million that DoD placed
with USAID in the fourth quarter of FY 2009.                What We Recommend
                                                            DoD Acquisition and Logistics officials and DoD
What We Found                                               Comptroller officials should update guidance to clarify
CENTCOM-Joint Theater Support Contracting                   that advance payments are not allowed for EAOs and to
Command (C-JTSCC) and USFOR-A officials did not             include procedures for properly monitoring interagency
establish adequate controls over interagency                acquisitions. C-JTSCC and USFOR-A need to quickly
acquisitions when transferring $40.1 million in CERP        update procedures and establish controls over the
funds to USAID using three EAOs. Specifically,              development and monitoring of EAOs. Army
C-JTSCC and USFOR-A officials did not:                      Comptroller officials should coordinate with DoD
   advance funds to USAID appropriately;                   Comptroller officials to review potential ADA
   monitor EAO execution adequately; and                   violations, and request that USAID return the
   prevent USAID from using cost-plus-fixed-fee            $17.6 million it used on out-of-scope projects.
      contracts that provided no incentives.
                                                            Management Comments and Our
This occurred because DoD had conflicting guidance on
advancing funds under EAOs and the EAOs did not
                                                            Response
clearly define roles and responsibilities or procedures     DoD Acquisition and Logistics officials, DoD
for monitoring the execution of interagency agreements.     Comptroller officials, C-JTSCC officials, USFOR-A
C-JTSCC also did not properly review USAID contracts        officials, and Army Comptroller officials provided
to determine if they would sufficiently meet DoD needs.     comments, stating agreement with recommendations to
As a result, U.S. Central Command and USFOR A will          update guidance for advance payments and interagency
not receive the goods and services as ordered in the        acquisitions, establish controls over EAOs, and review
EAOs. Also, USAID spent funds on projects not               potential ADAs. We request additional comments from
authorized in the EAOs. Unless controls are improved,       C-JTSCC on Recommendation A.3.a regarding
DoD is at increased risk of unmet performance when          inclusion of minimum procedures in the Command
transferring to Department of State or USAID, a             Acquisition Instruction update. We request additional
significant portion of the $400 million of Afghanistan      comments from Army Comptroller on
Infrastructure Funds appropriated for FY 2011 and the       Recommendation B.2 regarding the performance of a
$400 million authorized for FY 2012.                        joint ADA investigation with USAID and on monetary
                                                            benefits located in Appendix C. Please see the
C-JTSCC potentially violated the Purpose Statute by         recommendations table on the back of this page and
inappropriately authorizing the transfer of $27.6 million   provide comments by September 14, 2012.
of CERP funds to USAID because the construction

                                                        i
Report No. DODIG-2012-117 (Project No. D2011-D000FL-0218.000)       August 14, 2012

Recommendations Table

         Management                   Recommendations             No Additional
                                     Requiring Comment        Comments Required
Under Secretary of Defense for                             A.2.a, A.2.b
Acquisition, Technology, and
Logistics
Under Secretary of Defense                                 A.1.a, A.1.b, A.1.c
(Comptroller)/Chief Financial
Officer
U.S. Central Command              A.3.a                    A.3.b.(1), A.3.b.(2),
                                                           A.3.b.(3), A.3.b.(4),
                                                           A.3.b.(5), A.3.b.(6),
                                                           A.3.b.(7), A.3.c
U.S. Forces-Afghanistan                                    A.4, B.3
Assistant Secretary of the Army   B.2.a, B.2.b, B.2.c      B.1.a, B.1.b, B.1.c
(Financial Management and
Comptroller)

Please provide comments by September 14, 2012.




                                             ii
Table of Contents
Introduction	                                                               1

       Audit Objective                                                      1

       Background                                                           1      

       Review of Internal Controls on Economy Act Orders                    3


Finding A. U.S. Central Command-Joint Theater Support Contracting 

Command and U.S. Forces-Afghanistan Did Not Adequately Control 

Interagency Acquisitions                                                    4

       Federal and DoD Interagency Acquisition and Economy Act 

              Order Guidance                                                 4

       Economy Act Order Roles and Responsibilities                          5

       Adequate Controls Not Established                                    6

       DoD Did Not Receive Goods and Services As Intended                   10 

       Delivery of Goods and Services for Future Interagency Agreements 

              in Doubt                                                      12 

       Further Steps That Could Be Taken to Protect U.S. Government’s 

              Interests in Afghanistan                                      13 

       Recommendations, Management Comments, and Our Response               14 


Finding B. Potential Funding Violations and Improperly Used Commander’s 

Emergency Response Program Funds                                            18 

       Fiscal Controls Over the Use of Government Funds                     18 

       Potential Purpose Statute Violation                                  19 

       Potential Bona Fide Needs Rule and Recording Statute Violation       19 

       Potential Antideficiency Act Violations and Improper Use of Funds    22 

       Recommendations, Management Comments, and Our Response               23 


Appendices

       A. Audit Scope and Methodology 	                                     25 

              Use of Computer-Processed Data                                25 

       B. Prior Audit Coverage of Commander’s Emergency Response Program

              and DoD Interagency Agreements                                26 

       C. Summary of Potential Monetary Benefits 	                          29 


Management Comments
Under Secretary of Defense (Acquisition, Technology, and Logistics)         30 

Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD       32 

U.S. Central Command 	                                                      35 

U.S. Forces-Afghanistan                                                     37 

Assistant Secretary of the Army (Financial Management and Comptroller)      38

Introduction
Audit Objective
Our audit objective was to determine whether U.S. Central Command (USCENTCOM) and U.S.
Forces-Afghanistan (USFOR-A) controls over the interagency transfer of Commander’s
Emergency Response Program (CERP) Funds to the U.S. Agency for International Development
(USAID) were adequate to ensure compliance with Economy Act Order (EAO) requirements and
the timely and cost-effective delivery of goods and services ordered. Specifically, we reviewed
three EAOs that USFOR-A placed with USAID in the fourth quarter of FY 2009 using CERP
funds. See Appendix A for the audit scope and methodology and Appendix B for prior coverage
related to the audit objective.

Background
The Coalition Provisional Authority established CERP in 2003 to enable military commanders to
respond to urgent humanitarian needs in Afghanistan and Iraq. Commanders use CERP to
provide a rapid response and stabilization capability that is considered vital for improving
security and implementing the counterinsurgency strategy. CERP is intended to be used for
small scale (less than $500,000) projects that benefit the local population in areas such as
agriculture, education, healthcare, and sanitation. Projects costing more than $500,000 are
expected to be relatively few in number and require the approval of the theater CERP Program
Manager, while projects costing more than $2 million must be approved by the Commander,
USCENTCOM.

The Ike Skelton National Defense Authorization Act (the Act) for Fiscal Year 2011 (Public
Law 111-383) made available $400 million of Operations and Maintenance, Army (OMA)
funds1 for FY 2011 CERP. The Act included a restriction stating that CERP funds may not be
obligated or expended for an individual project if the project cost exceeds $20 million. The Act
also requires the Secretary of Defense to submit a written notice to the congressional defense
committees containing details for projects costing $5 million or more. Those details include a
project description, budget, implementation timeline, and sustainment plans.

Economy Act
The Economy Act, section 1535, title 31, United States Code (31 U.S.C. § 1535 [2007]),
authorizes federal agencies to obtain goods or services from another federal agency through
interagency acquisition (IA). The intent was to achieve economies of scale and eliminate
overlapping activities in the government. Each EAO must be supported by a determination and
finding that obtaining the goods or services from another federal agency is in the best interest of
the government because the required goods or services cannot be obtained as conveniently or
economically from a private source. EAOs cannot be used to evade conditions and limitations

1
  OMA funds are used to pay for expenses costing less than $250,000 such as civilian salaries, supplies, materials,
and maintenance of equipment. OMA funds are normally available for obligation for one fiscal year. Since
October 1, 2002, section 2805(c), title 10, United States Code (10 USC § 2805(c)) permits minor construction
projects costing less than $750,000 to be funded by Operations and Maintenance appropriations. The dollar
threshold increases to $1,500,000 if the project is to resolve a condition that threatens life, health or safety.


                                                          1

imposed on the use of funds, including extending the period of funds availability. An EAO
obligates the applicable appropriation of the requesting agency (the customer) upon acceptance
of the order by the servicing agency (the performer). It is important that the requesting and
servicing agencies reconcile the EAO obligation status and deobligate any unused funds before
the end of the funds availability.

Economy Act Orders
In the fourth quarter of FY 2009, CENTCOM-Joint Theater Support Contracting Command
(C-JTSCC) transferred CERP funds totaling $40.1 million to USAID for IAs using three EAOs.
The funds were to be used for the Uruzgan Two Bridges project, the Nine Bridges project, and
the Bamyan to Doshi Road project. Figure 1 shows the breakout of CERP funding transferred to
USAID by EAO.

Figure 1. CERP Projects Transferred to USAID




   Uruzgan Two Bridges-Oshay      Nine Bridges Project-Bridge #9      Bamyan to Doshi Road
         $15.5 million                    $12.5 million                  $12.1 million
           July 2009                       August 2009                  September 2009

Uruzgan Two Bridges Project
According to the Uruzgan Two Bridges project EAO, DoD agreed to supply CERP funds to
USAID for the construction of two permanent two-way traffic bridges in northern Uruzgan
province. The EAO stated that the lack of river crossings over the Shakur and Helmand rivers
isolated the northern Uruzgan province from the main provincial economic centers, reducing
stability and unity within the province. Construction of one bridge over the Shakur River at
Regak and one bridge over the Helmand River at Oshay would provide an economic link to the
provincial economic centers and act as a key component of stability and unity in northern
Uruzgan.

Nine Bridges Project
According to the Nine Bridges project EAO, DoD agreed to supply CERP funds to USAID for
the construction of nine bridges along Highway 1 in Afghanistan, that were destroyed by
anti-governmental elements. Highway 1, a vital economic trade link, is the primary route
connecting the south of the country with both the capital (Kabul) and the central and northern
provinces. Repair of the nine bridges would restore Highway 1’s role as a stabilizing influence
and economic bond between the southern, central, and northern provinces.

                                               2

Bamyan to Doshi Road Project
According to the Bamyan to Doshi Road EAO, DoD agreed to supply CERP funds to USAID for
grading, maintenance, and minor upgrades to the road. The EAO indicated the Bamyan to Doshi
Road is part of an alternate route for the northeastern Ring Road that is a vital economic trade
link as well as a key component to stability and unity in Afghanistan. The EAO also states that
an alternate route is essential because the northeastern Ring Road is subject to winter weather,
traffic closures due to accidents, and congestion, and is in need of major rehabilitation.

Review of Internal Controls on Economy Act Orders
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,” July 29,
2010, requires DoD organizations to implement a comprehensive system of internal controls that
provide reasonable assurance that programs are operating as intended and to evaluate the
effectiveness of the controls. We identified internal control weaknesses over the advancing,
monitoring, and contracting of CERP funds transferred to USAID for the EAOs we examined.
We also identified potential monetary benefits totaling $17.6 million resulting from USAID’s
potential violation of the Bona Fide Needs Rule and Recording Statute. We will provide a copy
of the final report to the senior DoD officials responsible for managing EAOs and CERP funds.




                                               3

Finding A. U.S. Central Command-Joint Theater
Support Contracting Command and U.S.
Forces-Afghanistan Did Not Adequately Control
Interagency Acquisitions
C-JTSCC and USFOR-A officials did not establish adequate controls over IAs when transferring
$40.1 million in CERP funds to USAID using three EAOs. Specifically, C-JTSCC and
USFOR-A officials:

   	 advanced funds to USAID in violation of DoD 7000.14-R, “DoD Financial Management
      Regulation” (DoD FMR) and USFOR-A Publication 1-06 (Money As A Weapon
      System-Afghanistan) (MAAWS-Afghanistan);

   	 did not to adequately monitor the execution of the EAOs to ensure that goods and 

      services would be received as ordered; and 


   	 allowed USAID to use cost-plus-fixed-fee contracts that provided no incentives for
      positive contractor performance or penalties for poor contractor performance.

This occurred because DoD had conflicting guidance on the advancement of funds for EAOs. In
addition, C-JTSCC, USFOR-A, and USAID did not sufficiently define the roles and
responsibilities for each agency or procedures for monitoring execution of interagency
agreements in the EAOs. C-JTSCC also did not properly review USAID contracts to determine
if they would sufficiently meet DoD needs. As a result, DoD did not receive:

   	 the Regak and Oshay Bridges as ordered for the $15.5 million paid to USAID;

   	 five of nine bridges along Highway 1 in Afghanistan as ordered for the $12.5 million paid
      to USAID; and

   	 the $8.9 million in repairs and maintenance for the Bamyan to Doshi Road project as
      ordered from USAID.

Unless controls are improved, DoD is at increased risk of unmet performance when transferring
to Department of State, and possibly USAID, a significant portion of the $400 million of
Afghanistan Infrastructure Funds appropriated for FY 2011 and the $400 million authorized for
FY 2012.

Federal and DoD Interagency Acquisition and Economy Act
Order Guidance
Federal Interagency Acquisition and Economy Act Order Guidance
The Economy Act, Title 31 U.S.C., Section 1535 provides authority for one federal agency to
obtain goods or services from another through an Economy Act Order. The Office of
Management and Budget’s “Improving the Management and Use of Interagency Acquisitions,”

                                              4

June 6, 2008, explains the type of arrangement between USFOR-A and USAID as an assisted
acquisition. The Office of Management and Budget guidance defines an assisted acquisition as
one in which the servicing agency and requesting agency enter into an interagency agreement
pursuant to which the servicing agency performs acquisition activities on the requesting agency’s
behalf, such as awarding a contract, task order, or delivery order.

DoD Interagency Acquisition and Economy Act Order Guidance
The DoD Federal Acquisition Regulation Supplement (DFARS) Section 217.5, the DoD FMR
volume 11a, chapter 3, and the DoD Instruction 4000.19 prescribe policies and procedures
applicable to transactions where goods or services are procured from other federal agencies
under the Economy Act. The Under Secretary of Defense (Comptroller)/Chief Financial Officer
(USD[C]/CFO) is responsible for maintaining the DoD FMR and the Under Secretary of Defense
for Acquisition, Technology & Logistics (USD/AT&L) is responsible for maintaining the
DFARS and the DoD Instruction 4000.19. The FMR requires that every EAO be supported by a
determination and finding to show that obtaining the goods or services from another federal
agency is in the best interest of the government. The FMR also provides guidance on the use of
funds and the required reconciliation of funds before the end of the period of availability. In
addition, the MAAWS-Afghanistan, which is the standard operating procedure for CERP,
establishes project evaluation and validation criteria to ensure the proper operation of CERP
projects.

Economy Act Order Roles and Responsibilities
C-JTSCC and USFOR-A were the requesting agencies in the EAOs. USAID was the servicing
agency and the executor of the CERP projects under the EAOs.

U.S. Central Command-Joint Theater Support Contracting
Command’s Role in Economy Act Orders
In the planning process of the IA, C-JTSCC is responsible for ensuring sound business
arrangements and stewardship of CERP fund transactions. When developing the contract,
C-JTSCC has the responsibility to ensure that CERP transactions are fair, transparent, and
accountable. C-JTSCC is responsible for constructing and signing the EAOs. C-JTSCC’s
signature serves as the obligation of the funds for the project according to the terms of the EAO.
This obligation of funds includes the authorization to advance the funds to USAID. Throughout
the course of project execution under an EAO, C-JTSCC has the responsibility to review any
scope changes made by USAID and ensure that the revised scope will satisfy the original
requirement under the EAO.

U.S. Forces-Afghanistan’s Role in Economy Act Orders
USFOR-A is responsible for developing the requirement to be completed in the EAO.
USFOR-A, as the requesting agency, is responsible for
choosing a servicing agency that has the authority,              USFOR-A also has the
experience, and expertise to conduct the acquisition           responsibility to choose a
needed to obtain the goods and services. USFOR-A also      servicing agency that can adhere
has the responsibility to choose a servicing agency that    to the DoD’s laws and policies
can adhere to the DoD’s laws and policies including any    including any unique acquisition
unique acquisition and fiscal requirements. USFOR-A             and fiscal requirements.

                                                5

must also ensure that it monitors the servicing agency’s progress to ensure that it receives the
goods and services under the terms of the EAO. Like C-JTSCC, USFOR-A must review any
scope changes to the project made by USAID and ensure that the revised scope will satisfy the
original requirement requested under the EAO.

U.S. Agency for International Development’s Role in Economy
Act Orders
USAID, as the servicing agency, is responsible for compliance with all other legal or regulatory
requirements applicable to the contract, including having adequate statutory authority for the
contractual action, and complying fully with the competition requirements. During the execution
of an approved project under the EAO, USAID has the responsibility to request approval from
C-JTSCC and USFOR-A prior to any proposed changes or modifications to the scope of work in
the existing EAO.

Adequate Controls Not Established
C-JTSCC and USFOR-A officials did not establish adequate controls over IAs when transferring
$40.1 million in CERP funds to USAID using three EAOs. Specifically, C-JTSCC and
USFOR-A did not establish controls to: prevent advancing funds to USAID in violation of the
DoD FMR and MAAWS-Afghanistan, ensure adequate review of the development and execution
of the EAOs, and prevent the use of cost-plus-fixed-fee contracts that provided no incentives for
positive contractor performance or penalties for poor contractor performance.

Improperly Advanced Funds to U.S. Agency for
International Development
C-JTSCC and USFOR-A advanced funds to USAID in violation of the DoD FMR, volume 11a,
chapter 3, and MAAWS-Afghanistan. DoD FMR states that unless specifically required by law,
funds are not to be advanced to non-DoD federal entities. The three EAOs state that “upon the
request by USAID, the Ordering Agency will provide funds
to USAID in advance of receiving the requested goods and           …C-JTSCC violated the
services.” By agreeing to this language in the EAOs,               DoD FMR guidance that
C-JTSCC violated the DoD FMR guidance that specifically              specifically disallows
disallows advancing funds. C-JTSCC approved the EAOs                   advancing funds.
that authorized the advance of $40.1 million of CERP funds
to USAID prior to USAID issuing task orders for work performed for all of the EAOs. In
addition, USFOR-A indicated in the CERP tracking project checkbook that the projects were
closed because the full funding had been disbursed to USAID. Consequently, subsequent troop
rotations may not see the need to follow up on the status of these projects.




                                                6

Conflicting Economy Act Order Guidance
DoD had conflicting guidance on the advancement of funds for EAOs. C-JTSCC approved the
EAOs that authorized the advance of $40.1 million in CERP funds to USAID prior to
performance of any of the work under the EAOs. DoD FMR, volume 11a, chapter 3,
section 030502, states “Unless the DoD
Component is specifically authorized by law,              USD(C)/CFO personnel stated the intent
legislative action, or Presidential authorization,            of this guidance is to prevent the
funds are not to be advanced to non-DoD federal              advancement of funds to non-DoD
entities, or be used to pay for advance billings               federal agencies under EAOs.
without receipt of goods or services.”
USD(C)/CFO personnel stated the intent of this guidance is to prevent the advancement of funds
to non-DoD federal agencies under EAOs. The FAR, section 17.5, and DFARS 217.5
implements the Economy Act provision but permits advance payments. DoD
Instruction 4000.19, paragraph 4.6.3 also implements the Economy Act and permits advance
payments. However, on March 1, 2007, the USD(C)/CFO issued a memorandum stating that all
DoD components were to stop advancing funds to non-DoD federal entities unless the DoD
entity is specifically authorized by law, legislative action, or Presidential authorization. DoD IG
has previously identified weaknesses in the use of IAs that advanced funds to the Department of
State.2 In those cases, after receiving the advanced funds, the Department of State has not
adequately provided the goods and services ordered according to the terms and conditions of the
EAOs. In addition, USFOR-A’s MAAWS-Afghanistan standard operating procedure on the use
of CERP funds issued December 2009 states that advancing funds is strictly prohibited.

USD(C)/CFO should coordinate with the USD/AT&L to reconcile the DoD FMR, DFARS, and
DoD Instruction 4000.19 guidance related to making advance payments on EAOs and make
necessary revisions to clearly state that advance payments are not allowed for EAOs. In
addition, USFOR-A could have used either a reimbursement process or a direct cite3 where
USAID could directly charge the DoD line of accounting through the Intragovernmental
Payment and Collection system. USD/AT&L should require that DoD agencies use either a
reimbursement process or a direct cite when establishing EAOs with non-DoD agencies.

Inadequate Monitoring of the Execution of the Economy Act Orders
USFOR-A did not adequately monitor the execution of the EAOs to ensure that goods and
services would be received as ordered. USFOR-A’s inadequate monitoring of projects and lack
of communication with USAID provided an oversight environment that allowed Louis Berger
Group to perform poorly in executing the EAOs.




2
  DoD IG Report No. D-2010-042, “DoD Obligations and Expenditures of Funds Provided to the Department of
State for the Training and Mentoring of the Afghan National Police,” February 9, 2010
3
  Direct cite is a citation of customer funds as the financing source on documents. When direct cite is used, all
accounting is accomplished by the ordering activity.


                                                          7

In September 2010, USFOR-A officials stated that they         In September 2010, USFOR-A
were unaware of whether the Bamyan to Doshi Road and           officials stated that they were
Nine Bridges projects were still ongoing. In addition, we    unaware of whether the Bamyan
requested evidence of correspondence between                 to Doshi Road and Nine Bridges
USFOR-A and USAID. USFOR-A did not have any                     projects were still ongoing.
evidence to support communication between them.

USFOR-A also poorly monitored the Regak and Oshay Bridge projects. USFOR-A could not
provide evidence of official project status reporting. USFOR-A’s monitoring consisted of
responding to USAID’s requests for additional funds to cover the mishandling of the projects and
several months later to provide engineering support to the Louis Berger Group’s subcontractor,
Procon Afghanistan Construction.

USFOR-A increased oversight of the CERP projects in response to DoD IG inquiries. The
increased oversight included performing a review of the Regak and Oshay Bridge projects, and
inquiring about the status of CERP funds for both the Bamyan to Doshi Road and Nine Bridges
projects. In addition, USFOR-A requested all contractual documentation related to the Regak
Bridge, including contract modifications, and has maintained communication with USAID
regarding Regak Bridge status updates.

Economy Act Orders Lacked Defined Roles and Responsibilities
C-JTSCC, USFOR-A, and USAID did not sufficiently define the roles and responsibilities for
each agency in the EAOs. OMB guidance requires roles and responsibilities be clearly defined
between the servicing agency and the requesting agency to ensure clarity before the agreement is
entered, to include monitoring and fiscal requirements. C-JTSCC is responsible for constructing
and signing the EAOs; however they did not ensure that the EAOs clearly defined the monitoring
roles and responsibilities of the DoD or USAID. USFOR-A lacked current project
documentation of the contract award, contract with the
statement of work, payment vouchers, invoices,                   USAID stated that they
miscellaneous correspondence, and contract completion        commingled    CERP funds with
and closeout paperwork. USFOR-A should also have                their Economic Support
matched the statement of work in the EAO to the task                 Program funds.
order awards. USFOR-A did not review the task orders.
Also, USFOR-A should have requested payment vouchers, invoices, and accounting information
for review to ensure that CERP funds were being properly used according to the EAOs. USAID
stated that they commingled CERP funds with their Economic Support Program funds. USAID
was not able to track CERP funds separately by contractual award or by accounting data.

The EAOs did not clearly state USFOR-A’s responsibility to request this information or
USAID’s responsibility to provide it. This occurred as a result of insufficient training on the
development of EAOs. C-JTSCC should ensure that its personnel are properly trained on the
best practices for developing and executing EAOs. Also, C-JTSCC should ensure that all future
EAOs have separately awarded contractual actions by the servicing agency to ensure that scope
of work and funds are not commingled with servicing agency’s projects. In addition, C-JTSCC
should ensure that all applicable DoD regulatory language is in the interagency agreements.



                                               8

Lack of Guidance on Proper Project Monitoring
USD/AT&L did not ensure that the DFARS contained standard operating procedures necessary
to properly monitor the IAs. C-JTSCC did not ensure that the CENTCOM Contracting
Command Acquisition Instruction contained guidance necessary to ensure that the necessary
language was included in EAOs to aid proper monitoring of the IAs. USFOR-A did not ensure
that the MAAWS-Afghanistan contained procedures necessary to ensure proper monitoring of
projects completed by IAs. While DFARS points to DoD Instruction 4000.19 as supplemental
guidance for intragovernmental support agreements, this Instruction does not provide specific
guidance for tracking execution and termination of EAOs.

We recommend the USD/AT&L revise the DFARS to include procedures on how to properly
monitor IAs to ensure the timely and cost-effective delivery of requested goods and services. At
a minimum, these procedures should include collection and maintenance of project
documentation such as contracts, task orders, statements of work, modifications, accounting data,
payment vouchers, invoices, relevant correspondence, and contract completion and closeout
paperwork. We also recommend that C-JTSCC include procedures to prevent advance payments
and to clearly define roles and responsibilities to ensure proper monitoring of projects being
completed by IAs in the CENTCOM Contracting Command Acquisition Instruction. In addition,
we recommend that USFOR-A also include similar monitoring procedures in the
MAAWS-Afghanistan.

Lack of Performance Incentives in Economy Act Order Task Orders
C-JTSCC and USFOR-A allowed USAID to use cost-plus-fixed-fee contracts that provided no
incentives for positive contractor performance or penalties for poor contractor performance in
obtaining construction services. Cost-plus-fixed-fee contracts provide the contractor only a
minimum incentive to control costs. In addition, contractors benefit and receive additional fees
when contracts have increased costs. In the cases of these EAOs, USAID’s contractor has not
fully delivered on any of the projects. The performance period on the EAOs was from
September 2009 to December 2011, which also does not meet the CERP requirements of
“urgent” or “immediate.”

C-JTSCC did not properly review the USAID contract to be used for the assisted acquisition
CERP projects to determine if it would sufficiently meet the needs of DoD. In addition,
C-JTSCC did not evaluate whether the contractor could adequately perform on a CERP
construction project that by definition is “urgent” and “immediate.” Typically, Government
agencies must use firm-fixed price contracts to acquire construction services. Firm-fixed price
contracts provide the maximum incentive for contractors to keep costs down and deliver in a
timely manner. C-JTSCC should ensure that EAO construction contracts provide the maximum
performance incentives possible for construction services by using firm-fixed price contracts.

In performing their due diligence when entering the EAO with USAID, USFOR-A did not
review the type of contract that USAID had with the prime contractor. Their lack of contract
review resulted in USFOR-A’s requirements being serviced using a cost-plus-fixed-fee contract
which was not in the best interest of the DoD. In the future, we request that C-JTSCC document
the review of the servicing agency’s contract to determine if it sufficiently meets the needs of the
requesting agency when participating in EAO assisted acquisitions.


                                                 9

DoD Did Not Receive Goods and Services as Intended
As a result of the conflicting guidance, lack of monitoring, and inadequate review of the contract,
DoD will not timely and cost-effectively receive the goods and services as ordered under the
EAOs. In addition, USAID spent funds on projects not authorized in the EAOs (see Finding B
for details on the funding violations).

Regak and Oshay Bridge Projects
USFOR-A ordered two permanent bridges under an EAO, but USAID delivered one bridge for
the $15.5 million paid. C-JTSCC authorized the
transfer of $15.5 million to USAID for two complete  C-JTSCC authorized the transfer of
two-lane bridges. However, USAID delivered one         $15.5 million to USAID for two
single lane temporary bridge at Regak. In addition, complete two-lane bridges. However,
the delivery of this bridge was dependent upon        USAID delivered one single lane
USFOR-A providing engineering support to the Louis       temporary bridge at Regak.
Berger Group, which was not part of the original
agreement.

USAID significantly changed the scope of the projects from what was agreed to in the EAO.
USFOR-A did not formally approve the changes and was unaware of many of the changes that
led to the significant shortfall between the requirements and the incomplete finished product.
The poor project management resulted in:

    	 commingling of funds;

    	 installation of a temporary pedestrian bridge over fallen sections of the old Regak Bridge
       (see Figure 2);

    	 providing $1.7 million for security of the fallen remnants of the Regak Bridge during a
       nine month period, in which limited worksite construction activity was performed; and

    	 clearing of the Chambarrak Pass, even though U.S. Government officials could not
       verify whether this task was a requirement or if the work was actually performed.

Figure 2. Regak Foot Bridge




                                                10 

Another factor that contributed to the               Figure 3. Nearly-Complete One-Lane
difficulty in building the Regak and Oshay           Regak Bridge
Bridges was the lack of contractor expertise.
The prime contractor, Louis Berger Group,
stated that the subcontractor in charge of the
construction of the bridges, Procon
Afghanistan Construction, did not have the
technical expertise to complete the
construction of the bridges and, therefore,
 required USFOR-A engineering assistance. On
December 15, 2011, USFOR-A finally opened the Regak Bridge, a one-lane prefabricated bridge
(see Figure 3 for a picture of the nearly completed Regak Bridge). USAID did not return any of
the $15.5 million intended for the two, two-lane bridges.

Nine Bridges Project
USFOR-A did not receive five of nine bridges along Highway 1 in Afghanistan as ordered for
the $12.5 million transferred to USAID. C-JTSCC authorized the transfer of $12.5 million to
USAID to repair or reconstruct these nine bridges. Despite having completely paid the CERP
funds to the Louis Berger Group, USAID delivered only four of the nine bridges with the other
five bridges terminated because of contractor
                                                  Despite having completely paid the CERP
non-performance. In a review of contractor
                                                   funds to the Louis Berger Group, USAID
performance dated November 16, 2011, for
                                                  delivered only four of the nine bridges with
one of the unfinished bridges, the review
                                                   the other five bridges terminated because
states that Louis Berger Group estimated that
                                                        of contractor non-performance.
the project was 78 percent complete.
However, the review found that due to contractor actions, there was actually more work to be
completed than there was 14 months prior to the November review,4 making the actual
percentage of completion less than zero. For another bridge, the review states, “The work that
has been completed to date is of such poor quality as to be of questionable value. The prime
contractor has demonstrated no ability to manage the project.” The report recommended that the
construction on all five incomplete bridges be terminated for cause.

In July 2011, the Chief Financial Officer for Stability Operations for Regional Command-East at
Bagram Airbase, Afghanistan, stated, “It is a waste of taxpayer money to continue a project
where the implementer can’t do the work.” He continued by stating “This is a prime example of
why Economy Act Orders of CERP to USAID are a bad idea - we lose management oversight
but we’re still responsible for the outcome that we don’t really influence. The other history is
that these funds were available at the very end of FY 2009 and my take is that we pushed them
out in the most expeditious way possible to get them obligated in time, which was a[n] EAO to
USAID. The results, like most projects that are rushed, are less than optimal.”

USAID was unable to provide us with sufficient project documentation for the nine bridges and,
as a result, we could not determine if USAID properly paid any of the $12.5 million of CERP

4
 During construction on one of the bridges, the contractor partially removed a portion of the bridge which led to the
washing away of a span of the bridge that was supposed to be saved.


                                                        11 

funds to contractors for costs associated with the construction of the nine bridges. See finding B
for more information on possible Bona Fide Needs Rule and Recording Act Statute violations
regarding this project.

Bamyan to Doshi Road Project
USFOR-A will not receive the repairs and maintenance for the Bamyan to Doshi Road project as
ordered for the $12.1 million transferred to USAID. DoD only received approximately
$3.0 million (25 percent) worth of winter road
maintenance. On December 23, 2010, USAID             …USAID unilaterally decided to use the
unilaterally decided to use the remaining             remaining $8.9 million for community
$8.9 million5 for community development               development projects identified by the
projects identified by the Louis Berger Group         Louis Berger Group which were not in
which were not in the scope of the original EAO.         the scope of the original EAO.

USFOR-A provided the full funding amount to USAID for rough grading and winter
maintenance of the road for the fall of 2009 through the spring of 2010. However, contract
documentation shows that USAID changed the scope of work to 25 community development
projects (later reduced to 12 projects) which included 4 one-way vehicle bridges, 8 Micro-Hydro
Power Plants, and 7 Water Supply, Flood Control, and Wells projects. These projects were
based on the Louis Berger Group’s Project Assessment Report dated June 2010. A portion of the
costs was also for security at the locations of these projects. When asked for supporting financial
documentation of the projects, USAID stated that they had to rely on the prime contractor to
provide documentation to support the project costs due to CERP funds being comingled with
other USAID funds. See Finding B for more information on a possible Bona Fide Needs Rule
violation regarding the 12 community development projects.

Delivery of Goods and Services for Future Interagency
Agreements in Doubt
Unless controls are improved, the portion of the $800 million of FYs 2011 and 2012 Afghanistan
Infrastructure Fund that DoD transfers to the Department of State, and possibly USAID, will be
at risk of not meeting DoD needs. The Ike Skelton National Defense Authorization Act for
Fiscal Year 2011 (Public Law 111-383) established the Afghanistan Infrastructure Fund to allow
DoD and Department of State to carry out large scale infrastructure projects. As of October
2011, at least $131 million (and possibly another $53 million) of the $400 million of FY 2011
Afghanistan Infrastructure Funds will be transferred from DoD to USAID potentially under
EAOs. To institute proper controls over the transfer and execution of the funds on EAOs and
ensure timely and cost-effective delivery of goods and services, it is imperative that C-JTSCC
establish a quality control oversight program to:

    	 detect and prevent the use of advance payments to servicing agencies for projects 

       executed though EAOs; 




5
  The total $11.9 million paid to the contractor for this project is $0.2 million less than the $12.1 million transferred
to USAID for the project. The difference represents USAID’s project management support and overhead costs.



                                                           12 

   	 develop EAOs that comply with the Office of Management and Budget’s requirement to
      clearly define servicing agency and requesting agency roles and responsibilities before
      the agreement is signed;

   	 document the review of the servicing agency’s contract to determine if it sufficiently
      meets the needs of the requesting agency;

   	 ensure that contracts issued under EAOs provide the maximum performance incentives
      possible for construction services by using firm-fixed price contracts;

   	 ensure that EAOs have separately awarded task orders by the servicing agency to ensure
      that the scope of work and funds are not commingled with servicing agency’s projects;

   	 ensure that EAOs include language that requires the servicing agency to adhere to DoD
      regulations; and

   	 provide training on these controls to contracting personnel involved in the development
      and execution of EAOs.

C-JTSCC should not transfer future funds to Department of State or USAID until adequate
controls are installed for EAOs and continuous training occurs for DoD personnel on oversight
of EAOs and related internal controls.

Further Steps That Could Be Taken to Protect U.S.
Government’s Interests in Afghanistan
USFOR-A and USAID did not protect the U.S. Government’s interests by securing performance
bonds from Louis Berger Group for the projects under the three EAOs or holding them
accountable for continued performance issues. We briefed these major issues to the USAID
Inspector General and other responsible USAID components. In response to the problems that
we have identified, the USAID Inspector General initiated review number FF101712 on
October 25, 2011, to look at the three EAOs.

Performance Bonds Needed to Protect Taxpayer Money
USFOR-A and USAID did not have performance bonds in place to protect the U.S. Government
from damages against poor performance of the prime contractor, Louis Berger Group. FAR
Part 28.102-1 covers performance bonds and other protections for construction contracts. We
requested information from USAID related to performance bonds that would protect USAID
from Louis Berger Group’s non-performance on the contracts. USAID representatives stated
that they did not have performance bonds and did not collect retention fees from Louis Berger
Group. However, Louis Berger Group did have performance bonds with some of their
subcontractors, meaning that if the subcontractor defaulted on construction performance, Louis
Berger Group would receive the performance bond. On January 18, 2012, we presented our
concerns about the performance bonds to USAID officials responsible for activities in
Afghanistan. USAID Inspector General is currently performing an audit following up on many
of our concerns under project number FF101712. USAID Inspector General will review whether



                                               13 

CERP funded projects were used for their intended purposes and review for compliance with
applicable laws and regulations as they related to USAID activities for the CERP projects.

DoD and U.S. Agency for International Development Need to Hold
Contractors Accountable
USAID’s contractor for performance of these task orders has shown a pervasive lack of controls
over subcontractor performance and project costs that, in conjunction with past illegal activity,
generate questions of whether the contractor should be suspended or debarred. On November 5,
2010, former Louis Berger Group executives pleaded guilty to conspiring to defraud the
government with respect to payments for work performed in Iraq and Afghanistan. In addition,
Louis Berger Group resolved criminal and civil fraud charges related to their Chief Executive
Officer. Louis Berger Group also had to submit to independent monitoring, performed by the
Defense Contract Audit Agency, for contracts awarded under the Afghanistan Infrastructure
Rehabilitation Program from 2006 to 2008. USAID Inspector General’s audit of USAID’s use
of CERP funds will help answer whether USAID should seek suspension or debarment of the
contractor.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Under Secretary of Defense (Comptroller)/Chief Financial
Officer coordinate with the Under Secretary of Defense for Acquisition, Technology, and
Logistics to:

       a. Revise the Defense Federal Acquisition Regulation Supplement to clearly state
that advance payments are not allowed for Economy Act Orders with non-DoD agencies.

       b. Revise DoD 7000.14-R, “DoD Financial Management Regulation” guidance to
clearly state that advance payments are not allowed for Economy Act Orders with
non-DoD agencies.

       c. Revise DoD Instruction 4000.19 guidance to clearly state that advance payments
are not allowed for Economy Act Orders with non-DoD agencies.

Under Secretary of Defense (Comptroller)/Chief Financial Officer
Comments
The Deputy Chief Financial Officer, DoD, agreed with Recommendations A.1.a, A.1.b, and
A.1.c and stated that his office will coordinate with the Office of USD/AT&L to assist Defense
Procurement and Acquisition Policy with referencing the DoD FMR, volume 11a, chapter 3, in
the DFARS and DoD Instruction 4000.19.

Our Response
The Deputy Chief Financial Officer, DoD, comments to Recommendations A.1.a, A.1.b, and
A.1.c were responsive and the proposed and completed actions will meet the intent of the
recommendations. In March 2012, USD(C)/CFO updated DoD FMR, volume 11a, chapter 3, to



                                               14 

improve controls over advance payments for EAOs and to mitigate the risk associated with
making advance payments to non-DoD agencies.

A.2. We recommend the Under Secretary of Defense (Acquisition, Technology & Logistics)
revise the DoD Federal Acquisition Regulation Supplement to:

      a. Require that DoD agencies use either a reimbursement process or a direct cite
when establishing EAOs with non-DoD agencies.

      b. Include procedures on how to properly monitor interagency acquisitions. At a
minimum, these procedures should include collection and maintenance of project
documentation such as contracts, task orders, statements of work, modifications,
accounting data, payment vouchers, invoices, relevant correspondence, and contract
completion and closeout paperwork.

Under Secretary of Defense (Acquisition, Technology, & Logistics)
Comments
The Director, Defense Procurement and Acquisition Policy, agreed with Recommendation A.2.a
and stated that his office will coordinate with USD(C)/CFO to revise the DFARS to reference the
policy of the DoD FMR on the use of direct cite or reimbursement processes under EAOs with
non-DoD agencies by October 1, 2012. The Director partially agreed with Recommendation
A.2.b and stated that his office will update the Procedures, Guidance, and Information supplement
of the DFARS to include a section on the proper monitoring of interagency acquisitions by
October 1, 2012.

Our Response
The Director, Defense Procurement and Acquisition Policy, comments to Recommendations
A.2.a and A.2.b were responsive and the stated actions will meet the intent of the
recommendations.

A.3. We recommend the Commanding General, CENTCOM-Joint Theater Support
Contracting Command:

       a. Revise the CENTCOM Contracting Command Acquisition Instruction to include
guidance on the proper development of Economy Act Orders as identified in
recommendations A.3.b(1) through A.3.b(6) and to aid proper monitoring of the
interagency acquisitions.

      b. Establish a quality control oversight program for Economy Act Orders including
procedures to:

              (1) Detect and prevent the use of advance payments to servicing agencies for
projects executed through Economy Act Orders.




                                              15 

              (2) Develop Economy Act Orders that comply with the Office of
Management and Budget’s requirement to clearly define servicing agency and requesting
agency roles and responsibilities before the agreement is signed.

              (3) Document the review of the servicing agency’s contract to determine if it
sufficiently meets the needs of the requesting agency.

              (4) Ensure that contracts issued under Economy Act Orders provide the
maximum performance incentives possible for construction services by using firm-fixed
price contracts.

              (5) Ensure that all future Economy Act Orders have separately awarded
task orders by the servicing agency to ensure that the scope of work and funds are not
commingled with servicing agency’s projects.

               (6) Evaluate the servicing agency’s ability to comply with DoD regulations
and policies, including any unique acquisition and fiscal requirements and ensure required
DoD regulations and policies are included in all Economy Act Orders.

              (7) Provide training related to Recommendations A.3.b(1) through A.3.b(6)
to contracting personnel involved in the development and execution of Economy Act
Orders.

      c. Consider refraining from transferring future Commander’s Emergency
Response Program and Afghanistan Infrastructure Funds to Department of State or U.S.
Agency for International Development until adequate controls are installed for Economy
Act Orders and continuous training occurs for DoD personnel on oversight of Economy
Act Orders and related internal controls.

CENTCOM-Joint Theater Support Contracting Command Comments
The Commander, C-JTSCC, agreed with Recommendations A.3.a and A.3.b and stated that
C-JTSCC will update the Command Acquisition Instruction to include guidance on the proper
development of EAOs within 90 days of his June 4, 2012, response. The Commander also
agreed to establish an interim quality control oversight program for EAOs and stated that
C-JTSCC will comply with the DFARS Interagency Acquisitions monitoring procedures that are
scheduled to be updated. Finally, the Commander agreed with Recommendation A.3.c and
stated that C-JTSCC will consider refraining from transferring future funding until adequate
controls are in place for EAOs.

Our Response
The Commander, C-JTSCC, comments to Recommendations A.3.b and A.3.c were responsive
and the stated actions will meet the intent of the recommendations. The Commander’s
comments to Recommendation A.3.a were partially responsive and we request that the
Commander provide comments to clarify whether the procedures listed in
Recommendations A.3.b.(1) – A.3.b.(6) will be included in the Command Acquisition
Instruction update.


                                             16 

A.4. We recommend the Commanding General, United States Forces-Afghanistan revise
USFOR-A Publication 1-06 (Money As A Weapon System-Afghanistan) to include
procedures for proper monitoring of projects being completed by interagency acquisitions.

U.S. Forces-Afghanistan Comments
The Colonel, USFOR-A Civil Affairs Branch, agreed with Recommendation A.4 and stated that
USFOR-A will update the USFOR-A Publication 1-06 (Money As A Weapon System-
Afghanistan) CERP Standard Operating Procedures to include proper monitoring of projects
being completed by interagency acquisitions after the DoD FMR revisions are completed.

Our Response
The Colonel, USFOR-A Civil Affairs Branch’s comments to Recommendation A.4 was
responsive and the proposed action will meet the intent of the recommendation.




                                           17 

Finding B. Potential Funding Violations and
Improperly Used Commander’s Emergency
Response Program Funds
C-JTSCC officials potentially violated the Purpose Statute when they inappropriately approved
the transfer of $27.6 million of CERP funds to USAID in FY 2009 because the projects primarily
benefitted U.S. Forces. USAID officials inappropriately obligated $9.6 million of FY 2009
CERP funds for unauthorized USAID projects whose requirements were not a DoD bona fide
need in FY 2009. Additionally, USAID inappropriately obligated $17.6 million of CERP funds
for projects that were not approved by C-JTSCC and USFOR-A and were outside the original
scope of the approved EAOs. As a result, C-JTSCC and USAID may have committed ADA
violations. USAID should also return the $17.6 million of improperly used DoD funds for work
that did not address DoD needs.

Fiscal Controls Over the Use of Government Funds
Purpose Statute
According to the Purpose Statute, section 1301(a), title 31, United States Code
(31 U.S.C. § 1301(a) [2007]), “Appropriations shall be applied only to the objects for which the
appropriations were made except otherwise provided by law.” The DoD FMR, volume 12,
chapter 27, states, “Appropriated funds made available for the CERP shall not be used for the
following purposes: (A) Direct or indirect benefit to U.S., coalition, or supporting military
personnel…”

Bona Fide Needs Rule
According to the Bona Fide Needs Rule, 31 U.S.C. § 1502 (2007), “The balance of an
appropriation or fund limited for obligation to a definite period is available only for payment of
expenses properly incurred during the period of availability…” The DoD FMR, volume 11a,
chapter 3, states, “Economy Act orders citing an annual or multiyear appropriation must serve a
bona fide need arising, or existing, in the fiscal year (or years) for which the appropriation is
available for obligation.”

Recording Statute
According to the Recording Statute, 31 U.S.C. § 1501 (2007), “An amount shall be recorded as
an obligation of the United States Government only when supported by documentary evidence
of—

  (1) a binding agreement between an agency and another person (including an agency) that
  is—

          (A) in writing, in a way and form, and for a purpose authorized by law; and

          (B) executed before the end of the period of availability for obligation of the
  appropriation or fund used for specific goods to be delivered, real property to be bought or
  leased, or work or service to be provided;”



                                                18 

Potential Purpose Statute Violation
C-JTSCC officials potentially violated the Purpose Statute when they approved the transfer of
$27.6 million of CERP funds for three projects under two EAOs that primarily benefitted U.S.
Forces and were not for urgent humanitarian needs. The primary purpose of CERP projects
should be for urgent humanitarian needs of Afghan people and not for the benefit of U.S. Forces.
DoD Instruction 7000.14-R, “DoD Financial Management Regulation,” (DoD FMR), volume 12,
chapter 27, states CERP shall not be used for the direct or indirect benefit to U.S., Coalition, or
supporting military personnel. Although the EAOs state that the projects will benefit the local
population (see Background pages 2-3), the statements of work contained within contract task
orders for the projects indicated that the primary purpose of the construction projects was for the
benefit of U.S. Forces.

   	 The statement of work for the $15.5 million Uruzgan Bridges projects stated that the
      construction of the bridges in the Uruzgan Province was “essential for their [USFOR-A]
      efforts in resisting Anti-Government Elements in the area.”

   	 The statement of work for the $12.1 million Bamyan to Doshi Road project stated that the
      objective of the construction was to “upgrade the Bamyan–Doshi Road to allow this road
      to be an alternative to the Salang Pass to support [U.S.] military supply traffic during the
      winter of 2009/2010 in advance of the main road upgrade to be completed in 2012.”

Because these projects were clearly for the direct or indirect benefit to U.S., Coalition, or
supporting military personnel, C-JTSCC officials should not have used CERP funds. In addition,
the ASA/FM&C should perform an investigation of the potential violation of the Purpose Statute
to determine whether an ADA violation occurred.

Potential Bona Fide Needs Rule and Recording
Statute Violation
USAID officials potentially violated the Bona Fide Needs Rule because they inappropriately
obligated $9.6 million of FY 2009 CERP funds for unauthorized USAID projects whose
requirements were not a DoD bona fide need in FY 2009. In addition, USAID potentially
violated the Recording Statute and the Economy Act by obligating $17.6 million of CERP funds
on projects that were not properly approved by C-JTSCC and USFOR-A and were outside the
original scope of the approved EAOs. See the Table and the follow-on discussion for a summary
of the potential funding violations related to the three EAOs we reviewed.




                                                19 

Table: C-JTSCC and USAID Potential Funding Violations (millions)
                            Potential ADA Violations
                          Purpose                             Potential
                                        Bona Fide Needs Recording
                           Statute                                                 Request Funds
   Transferred CERP                      Rule Violation
                        Violation by                           Statute             be Returned to
         Project                           by USAID
                          C-JTSCC                             Violation                 DoD
Uruzgan Two Bridges Project
     Regak Bridge               $ 7.5                   -                  -               -
     Oshay Bridge                 8.0                   -              $ 8.0            $ 8.0
Bamyan to Doshi Road Project
     Road
     Construction/Winter          3.2                   -                 -                -
     Maintenance
     (FYs 2010/2011)
     Community
     Development                   8.9               $ 8.9               8.9              8.9
     Projects
Nine Bridges Project
     Nine Bridge                    -                   -                 -                -
     Reconstruction
     Emergency or                   -                  0.7               0.7              0.7
     Urgent Works

 Total                           $ 27.6              $ 9.6            $ 17.6          $ 17.6

Uruzgan Two Bridges Project
In July 2009, C-JTSCC and USAID approved an EAO in which C-JTSCC authorized the transfer
of $15.5 million of CERP funds for USAID to construct two bridges, the Regak Bridge and the
Oshay Bridge. DoD provided funding for the two separate bridges using two separate Military
Interdepartmental Purchase Requests (MIPRs)--a $7.5 million MIPR for the Regak Bridge and
an $8.0 million MIPR for the Oshay Bridge. In December 2011, the construction of the Regak
Bridge was completed. As discussed in Finding A, USAID modified the task orders from the
initial EAO, to commingle the funds from the two
separate MIPRs and apply the entire $15.5 million            …USAID improperly used the
to the Regak Bridge. A MIPR is a legal binding            $8.0 million from the Oshay Bridge
written agreement required by the Recording                   MIPR by applying it to the
Statute setting forth the duties of the parties to the     construction of the Regak Bridge.
agreement and permitting the obligation of funds.
USAID potentially violated the Recording Statute by not obligating the funds on the project for
the agreed purpose. It also may have violated the Economy Act, 31 U.S.C. § 1535(d) (2007), by
not returning the funds that were not used for the agreed upon purpose by the end of the period
of availability of those funds. As a result, USAID improperly used the $8.0 million from the
Oshay Bridge MIPR by applying it to the construction of the Regak Bridge. USAID should
return these improperly used funds to DoD.



                                              20 

Bamyan to Doshi Road Project
In September 2009, C-JTSCC and USAID approved an EAO in which C-JTSCC authorized the
transfer of $12.1 million of CERP funds for USAID to perform grading, maintenance, and minor
upgrades to the Bamyan to Doshi Road. USAID obligated $3.2 million of the $12.1 million to
perform road maintenance in FYs 2010 and 2011. As discussed in Finding A, on December 23,
2010, USAID improperly modified task order 26 to use the remaining $8.9 million on
community development projects without proper
                                                       …USAID potentially violated the Bona 

approval from C-JTSCC and USFOR-A. The
                                                        Fide Needs Rule by inappropriately 

construction of the Bamyan to Doshi Road
                                                           changing the scope of work in 

project was completed December 14, 2011. The
                                                          December 2010 and obligating 

community development projects were not
                                                      $8.9 million for out-of-scope community 

included within the initial $12.1 million EAO
                                                               development projects.

and were not established or approved as a DoD
bona fide need in FY 2009. As a result, USAID potentially violated the Bona Fide Needs Rule
by inappropriately changing the scope of work in December 2010 and obligating $8.9 million for
out-of-scope community development projects. Because the scope change was outside of the
EAO and USAID did not receive proper approval from C-JTSCC and USFOR-A, this change in
scope was also a violation of the Recording Statute and of the Economy Act. USAID should
return the $8.9 million of improperly used funds to DoD. In addition, the Assistant Secretary of
the Army (Financial Management and Comptroller) (ASA/FM&C) should coordinate with the
Inspector General, USAID in order to perform a joint investigation of the potential violation of
the Bona Fide Need Rule to determine whether an ADA violation occurred. See Figure 4 for a
timeline of events related to the Uruzgan Two Bridges project and the Bamyan to Doshi Road
project.

Figure 4. CERP Project Timelines




                                              21 

Nine Bridges Project
In August of 2009, C-JTSCC and USAID approved an EAO in which C-JTSCC authorized the
transfer of $12.5 million of CERP funds for USAID to reconstruct the nine bridges along
Highway 1 in Afghanistan that were destroyed in 2008 by anti-government elements. On
September 27, 2009, USAID obligated
$11.7 million of the $12.5 million under            …because USAID did not have a binding
modification 4 to task order 14 for the           written agreement for this change in scope,
reconstruction of the 9 bridges. Also on              this was a potential violation of the
September 27, 2009, USAID issued                   Recording Statute and of the Economy Act.
modification 5 to task order 14 to obligate the remaining $0.7 million of transferred funds for
“Emergency or Urgent Works to be performed.” This change was not included within the initial
$12.5 million EAO and was not established or approved as a DoD bona fide need in FY 2009.
As a result, USAID may have violated the Bona Fide Needs Rule. In addition, because USAID
did not have a binding written agreement for this change in scope, this was a potential violation
of the Recording Statute and of the Economy Act. USAID should return the $0.7 million of
improperly used funds to DoD. In addition, the ASA/FM&C should coordinate with the
Inspector General, USAID in order to perform a joint investigation of the potential violation of
the Bona Fide Needs Rule to determine whether an ADA violation occurred.

Potential Antideficiency Act Violations and Improper Use
of Funds
C-JTSCC potentially violated the Purpose Statute when they transferred $27.6 million of CERP
funds to USAID in FY 2009 for major construction projects that were primarily for the benefit of
U.S. Forces. In addition, the ASA/FM&C should perform an investigation of the potential
violation of the Purpose Statute to determine whether an ADA violation occurred. USAID also
may have violated the Bona Fide Needs Rule by obligating $9.6 million of FY 2009 CERP funds
towards unauthorized requirements developed by USAID in FY 2010. Non-compliance with the
Bona Fide Needs Rule and Purpose Statute may lead to an ADA violation. In addition, USAID
may have violated the Recording Statute by obligating $17.6 million of CERP funds on projects
outside the original scope of the approved EAOs and not approved by C-JTSCC and USFOR-A.
USAID used the DoD funds for its own projects and goals. USAID needs to return the
$17.6 million of DoD funds so that they can be used to support the goals of CERP.

The ASA/FM&C should request that these funds be returned by USAID, establish a process for
tracking that these funds are returned or have USAID provide evidence that funds were used to
meet the intent of the EAOs, and identify and transmit the report to the appropriate USAID
Office for comment. The ASA/FM&C should also coordinate with the Inspector General,
USAID, in order to perform a joint investigation of the potential $9.6 million USAID ADA
violation and of the $17.6 million of funds USAID obligated outside the scope of the EAOs. In
addition, USFOR-A should coordinate with USAID to establish controls to better track the
disposition of CERP funds, ensure their legal use, and monitor changes in scope.




                                               22 

Recommendations, Management Comments, and Our
Response
B.1 We recommend the Assistant Secretary of the Army (Financial Management and
Comptroller):

       a. Report a potential Antideficiency Act violation and initiate a preliminary
investigation in accordance with DoD Regulation 7000.14-R, “Financial Management
Regulation,” volume 14, chapter 3, “Preliminary Reviews of Potential Violations.”

      b. If the investigation determines that a reportable Antideficiency Act violation has
occurred, conduct a formal investigation to determine responsible officials and recommend
appropriate corrective actions.

      c. Submit formal report to Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer and provide results to the DoD Office of Inspector
General.

B.2 We recommend that the Assistant Secretary of the Army (Financial Management and
Comptroller) coordinate with the Inspector General, United States Agency for
International Development in order to perform a joint investigation of the potential
$9.6 million Antideficiency Act violation of the Bona Fide Needs Rule and of the potential
$17.6 million Antideficiency Act violation of the Recording Statute. Specifically, they
should investigate the following amounts and take the appropriate action for:

       a. $8.0 million not spent on the Oshay Bridge.

       b. $8.9 million spent on community development projects.

       c. $0.7 million spent on generic work without considering Economy Act limitations.

Department of the Army Comments
The Deputy Assistant Secretary of the Army (Financial Operations) generally agreed with
Recommendations B.1 and B.2, stating they are directing the U.S Army Central Command to
report a potential ADA violation and initiate a preliminary investigation. The Deputy also stated
that the investigation will require USFOR-A to coordinate with USAID, but will not conduct a
joint investigation with them, and that his office will provide the results of the formal
investigation to Office of the Secretary of Defense (Comptroller) and the DoD OIG.

Our Response
The Deputy Assistant Secretary of the Army (Financial Operations) comments on
recommendations B.1.a, B.1.b, and B.1.c were responsive and the stated actions meet the intent
of the recommendations. The Deputy’s comments on recommendations B.2.a, B.2.b, and B.2.c
were partially responsive. The Deputy agreed to direct U.S. Army Central Command to initiate a
preliminary investigation of the potential ADA violations; however, did not agree to conduct a
joint investigation with USAID. Without U.S. Army Central Command performing a joint
investigation with USAID, the ADA investigation may not include documents supporting the


                                               23 

ADA that are in the possession of USAID, such as contracts, invoices, and receiving reports. We
recommend the Deputy reconsider his position to not perform a joint investigation with USAID
and provide comments on the final report.

B.3 We recommend the Commanding General, U.S. Forces-Afghanistan coordinate with
United States Agency for International Development to establish controls to better track
the disposition of Commander’s Emergency Response Program funds, ensure their legal
use and monitor changes in scope.

U.S. Forces-Afghanistan Comments
The Colonel, USFOR-A Civil Affairs Branch, agreed with Recommendation B.3 and stated that
CERP theater managers will develop a policy letter detailing procedures for interagency
acquisitions for future projects. The policy will reiterate the regulatory guidance that must be
followed when using CERP funds. CERP theater managers will also research the Combined
Information Data Network Exchange database and coordinate with USAID contacts to identify
CERP project transfers to USAID that are currently in-progress, other than those identified in
this audit. The identified projects will be reviewed to determine approved use of CERP funds,
disposition, and any changes to scope during the project execution.

Our Response
The Colonel, USFOR-A Civil Affairs Branch comments on Recommendation B.3 were
responsive, and the stated actions met the intent of the recommendation.




                                               24 

Appendix A. Audit Scope and Methodology
We conducted this performance audit from May 2011 through May 2012 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

This is the third in a series of audits addressing internal controls over CERP payments made in
Afghanistan. The scope of this third audit consisted of the three EAOs USFOR-A placed with
USAID and paid for with CERP funds. We initiated this audit to address the control issues
surrounding three EAOs identified during our second CERP audit which culminated in DoDIG
Report No. DoDIG-2012-023, “Management Improvements Needed in Commander’s
Emergency Response Program in Afghanistan,” November 21, 2011. USFOR-A (ordering
agency) placed the three EAOs with USAID (servicing agency) in the fourth quarter of FY 2009.
USFOR-A authorized the advancing of $40.1 million in CERP funds to USAID to complete the
work in the three EAOs. We contacted CENTCOM, USFOR-A, USAID, and the Defense
Contract Audit Agency to obtain hard copy documentation to include the EAOs, task orders, task
order modifications, payment vouchers, associated financial reports, vendor invoices, receiving
reports, and pertinent correspondence to complete our evaluation of internal controls. We then
evaluated each of the EAOs to determine if they complied with the applicable laws, guidance,
and requirements for EAOs.

Use of Computer-Processed Data
We did not assess the reliability of CERP data obtained from the Army Standard Financial
System financial data for the three EAOs we reviewed because we reviewed the reliability of this
data in a recent related audit.* Although we concluded in this recent audit that USCENTCOM
and USFOR-A did not report reliable data, this data did not affect our ability to accomplish our
audit objective because we verified the payment data related to the three EAOs against hard copy
documentation. We did assess the reliability of computer-processed EAO accounting data
received from USAID. Specifically, we validated the reliability of the accounting data from
Phoenix, USAID’s financial management system, by comparing the obligation and liquidation
amounts to hard copy task order modifications and disbursement vouchers as it related to CERP
projects. Overall, we determined the computer-processed data used during the audit was reliable
enough to accomplish our audit objective.




*
 DoDIG-2012-023 “Management Improvements Needed in Commander’s Emergency Response Program in
Afghanistan,” November 21, 2011.



                                                25 

Appendix B. Prior Audit Coverage of
Commander’s Emergency Response Program
and DoD Interagency Agreements
During the last five years, the Government Accountability Office (GAO), Department of Defense
Inspector General (DoD IG), the Army Audit Agency (AAA), the Special Inspector General for
Iraq Reconstruction (SIGIR), the Special Inspector General for Afghanistan Reconstruction
(SIGAR), and Department of State Inspector General (DoS IG) have issued 23 reports discussing
CERP. In a joint effort, three reports were issued from DoD IG and DoS IG on DoD funds
transferred to the Department of State. The DoD IG and DoS IG issued the reports separately,
each with the respective agency’s unique report numbers. Unrestricted GAO reports can be
accessed over the Internet at http://gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed at
https://www.aaa.army.mil/. Unrestricted SIGIR reports can be accessed at
http://www.sigir.mil/directorates/audits/auditReports.html. Unrestricted SIGAR reports can be
accessed over the Internet at http://www.sigar.mil/auditReports.asp. Unrestricted DoS IG reports
can be accessed at http://oig.state.gov/.

GAO
GAO Report No. GAO-09-0615, “Military Operations – Actions Needed to Improve Oversight
and Interagency Coordination for the Commander’s Emergency Response Program in
Afghanistan,” May 18, 2009

GAO Report No. GAO-08-736R, “Military Operations – Actions Needed to Better Guide Project
Selection for Commander’s Emergency Response Program and Improve Oversight in Iraq,”
June 23, 2008

GAO Report No. GAO-07-699, “Military Operations – The Department of Defense’s Use of
Solatia and Condolence Payments in Iraq and Afghanistan,” May 23, 2007

DoD IG
DoD IG Report No. DODIG-2012-023, “Management Improvements Needed in Commander’s
Emergency Response Program in Afghanistan,” November 21, 2011

DoD IG Report No. D-2011-102, “Afghan National Police Training Program Would Benefit
from Better Compliance with the Economy Act and Reimbursable Agreements,”
August 25, 2011

DoD IG Report No. D-2011-080, “DoD and DoS Need Better Procedures to Monitor and Expend
DoD Funds for the Afghan National Police Training Program,” July 7, 2011

DoD IG Report No. D-2010-042, “DoD Obligations and Expenditures of Funds Provided to the
Department Of State for the Training and Mentoring of the Afghan National Police,”
February 9, 2010



                                              26 

DoD IG Report No. D-2008-082 "Summary Report on Potential Antideficiency Act Violations
Resulting From DoD Purchases Made Through Non-DoD Agencies (FY 2004 Through
FY 2007)" April 25, 2008

DoD IG Report No. D-2008-066 “FY 2006 and FY 2007 DoD Purchases Made Through the
Department of Interior” March 19, 2008

ARMY AUDIT AGENCY
AAA Report No. A-2010-0057-ALL, “Audit of Controls Over Vendor Payments - Southwest
Asia” February 24, 2010

AAA Report No. A-2010-0012-ALL, “Audit of Controls Over Vendor Payments - Southwest
Asia” January 5, 2010

AAA Report No. A-2006-0090-ALE, “Follow-up II Commanders Emergency Response Program
and Quick Response Fund,” March 31, 2006

AAA Report No. A-2005-0332-ALE, “Follow-up Commanders Emergency Response Program
and Quick Response Fund,” September 30, 2005

SIGIR
SIGIR Report No. SIGIR-11-012, “Commander’s Emergency Response Program Obligations
Are Uncertain,” January 31, 2011

SIGIR Report No. SIGIR-10-003, “Iraq Commander's Emergency Response Program Generally
Managed Well, but Project Documentation and Oversight Can Be Improved,” October 27, 2009

SIGIR Report No. SIGIR-08-006, “Commander's Emergency Response Program in Iraq Funds
Many Large-Scale Projects,” January 25, 2008

SIGIR Report No. SIGIR-07-006, “Management of the Commander’s Emergency Response
Program in Iraq for Fiscal Year 2006,” April 26, 2007

SIGIR Report No. SIGIR-05-025, “Management of the Commander’s Emergency Response
Program for Fiscal Year 2005,” January 23, 2006

SIGIR Report No. SIGIR-05-014, “Management of the Commander’s Emergency Response
Program for Fiscal Year 2004,” October 13, 2005

SIGAR
SIGAR Report No. 11-7, “Commander's Emergency Response Program in Laghman Province
Provided Some Benefits, but Oversight Weaknesses and Sustainment Concerns, Led to
Questionable Outcomes and Potential Waste,” January 27, 2011

SIGAR Report No. 09-5, “Increased Visibility, Monitoring, and Planning Needed for
Commander's Emergency Response Program in Afghanistan,” September 9, 2009


                                             27 

DoS IG
DoS IG Report No. AUD/CG-11-44, “Afghan National Police Training Program Would Benefit
from Better Compliance with the Economy Act and Reimbursable Agreements,”
August 25, 2011

DoS IG Report No. AUD/CG-11-30, “DoD and DoS Need Better Procedures to Monitor and
Expend DoD Funds for the Afghan National Police Training Program,” July 7, 2011

DoS IG Report No. MERO-A-10-06, “DoD Obligations and Expenditures of Funds Provided to
the Department Of State for the Training and Mentoring of the Afghan National Police,”
February 9, 2010




                                          28 

Appendix C. Summary of Potential Monetary
Benefits
Recommendation   Type of Benefit           Amount of Benefit   Account

B.2              Economy and               $17.6 million       Operation and
                 Efficiency. The                               Maintenance, Army
                 Government could
                 better use these
                 funds for needed
                 projects.




                                    29 

Under Secretary of Defense (Acquisition, Technology, and
Logistics) Comments




                  Click to add JPEG file




                                   30
Click to add JPEG file




                 31
Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD Comments




                  Click to add JPEG file




                                   32
Click to add JPEG file




                 33
Click to add JPEG file




                 34
U.S. Central Command Comments





                Click to add JPEG file




                                 35
Click to add JPEG file




                 36
U.S. Forces-Afghanistan Comments





                 Click to add JPEG file




                                    37
Assistant Secretary of the Army (Financial Management and
Comptroller) Comments




                 Click to add JPEG file




                                  38
Click to add JPEG file




                 39
